                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Improved Internal Controls
                     Needed in the
                     Gulf of Mexico Program Office
                     Report No. 13-P-0271                    May 30, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Patrick Gilbride
                                                   Randy Holthaus
                                                   Raul Adrian
                                                   Lisa Bergman




Abbreviations

ANSP          Agency Network Security Policy
CIO           Chief Information Officer
COTR          Contracting Officer’s Technical Representative
EPA           U.S. Environmental Protection Agency
FISMA         Federal Information Security Management Act
FMFIA         Federal Managers’ Financial Integrity Act
FTE           Full Time Equivalent
FY            Fiscal Year
GAO           U.S. Government Accountability Office
GMPO          Gulf of Mexico Program Office
GPRA          Government Performance and Results Act
IMO           Information Management Officer
ISO           Information Security Officer
ISP           Information Security Policy
IT            Information Technology
LAN           Local Area Network
NCCR          National Coastal Condition Report
NIST          National Institute of Standards and Technology
OEAEE         Office of External Affairs and Environmental Education
OEI           Office of Environmental Information
OIG           Office of Inspector General
OMB           Office of Management and Budget
OW            Office of Water
SIO           Senior Information Officer




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              13-P-0271
                                                                                                          May 30, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Improved Internal Controls Needed in the
The Gulf of Mexico is one of        Gulf of Mexico Program Office
the U.S. Environmental
Protection Agency’s (EPA’s)          What We Found
Large Aquatic Ecosystem
programs. Due to its size and       Two of GMPO’s performance measures are unrealistic in that they do not reflect
rich biodiversity, the Gulf is      what the office was set up to achieve. The two unrealistic measures involve the
critically important for the        size of the hypoxic zone and the National Coastal Condition Report Index.
nation’s environmental and          Further, one strategic objective (environmental education) is not being measured.
economic well-being. Recent         This occurred because GMPO had not performed an assessment of its strategic
environmental disasters, such       objectives and performance measures, as required by governmentwide internal
as Hurricane Katrina and the        control standards. As a result, some of the functions that GMPO performs are not
BP Deepwater Horizon oil spill,     being properly measured and, thus, GMPO’s resources might not be used in the
have focused national attention     most efficient or effective way.
on the Gulf region.
Consequently, our objective         GMPO management did not ensure that its Local Area Network (LAN) was
was to determine whether the        secure, did not have primary information security controls in place, and did not
Gulf of Mexico Program Office       ensure the contractor met the security requirements in the LAN contract. This
(GMPO) had established              occurred because the GMPO’s former Acting Director was not trained on and
effective internal controls over    therefore not technically knowledgeable of federal and agency IT security
program operations.                 requirements. As a result, GMPO’s LAN is vulnerable to individuals and groups
                                    with malicious intentions, and EPA has not received the full benefit of the
This report addresses the           $749,755 paid over 4 years for LAN security services.
following EPA Goal or
Cross-Cutting Strategy:             The GMPO Web page displayed inaccurate data for over 18 months. GMPO did
                                    not perform a review of the content before posting, use a Content Manager to
 Protecting America’s waters.      review the content, or follow EPA’s Web governance policies or content review
                                    procedures. This occurred because GMPO personnel were not aware of the EPA
                                    Web governance policies or content review procedures. Because information
                                    posted on EPA’s Web pages is accessed by the public, inaccurate data can
                                    negatively impact EPA’s credibility.

                                     Recommendations and Planned Agency Corrective Actions
                                    We recommend that GMPO conduct a risk assessment of its strategic objectives
                                    and measures, and work with the Office of Water to adjust those measures as
                                    needed to accurately reflect GMPO’s mission. We recommend that GMPO and
                                    Region 4 officials correct the LAN security controls deficiencies. We also
                                    recommend that GMPO complete actions to establish an office Web content
                                    review process. Further, we recommend that the Office of Environmental
                                    Information address LAN deficiencies and, along with the Office of External
For further information, contact
                                    Affairs and Environmental Education, monitor GMPO Web actions. EPA agreed
our Office of Congressional and
Public Affairs at (202) 566-2391.   with 12 of our 13 recommendations and proposed a satisfactory alternative
                                    corrective action for the remaining recommendation.
The full report is at:
www.epa.gov/oig/reports/2013/
20130530-13-P-0271.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL




                                             May 30, 2013

MEMORANDUM

SUBJECT:	 Improved Internal Controls Needed in the Gulf of Mexico Program Office
          Report No. 13-P-0271

FROM: 	        Arthur A. Elkins Jr.

TO:	           See Below

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determination on matters in this
report will be made by EPA managers in accordance with established audit resolution procedures.

Action Required
The agency concurred with recommendations 1 through 12, and proposed a satisfactory alternative
corrective action for recommendation 13. Therefore, we accept EPA’s response and planned
corrective actions for all 13 recommendations and no further response is needed. We have no objections
to the further release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
Acting Assistant Inspector General for Audit, at (202) 566-0565 or Eyermann.Richard@epa.gov;
or Patrick Gilbride, Product Line Director, at (303) 312-6969 or Gilbride.Patrick@epa.gov.


Addressees: 

Nancy Stoner, Acting Assistant Administrator, Office of Water 

Malcolm D. Jackson, Assistant Administrator and Chief Information Officer, 

   Office of Environmental Information
Ben Scaggs, Director, Gulf of Mexico Program Office
A. Stanley Meiburg, Acting Regional Administrator, Region 4
Tom Reynolds, Associate Administrator, Office of External Affairs and
   Environmental Education
Improved Internal Controls Needed in the                                                                                     13-P-0271
Gulf of Mexico Program Office


                                   Table of Contents
Chapters
   1     Introduction ...........................................................................................................      1


                 Purpose ..........................................................................................................    1     

                 Background ....................................................................................................       1     

                 Scope and Methodology .................................................................................               3     

                 Prior Audit Reports .........................................................................................         3     


   2     GMPO’s Performance Measures Need Improvement ........................................                                         4


                 Federal Laws, Standards, and Policies Require Risk Assessment ................                                        4

                 Two GMPO Performance Measures Are Unrealistic ......................................                                  5

                 One Key GMPO Activity Not Measured..........................................................                          5

                 GMPO Did Not Perform a Programmatic Risk Assessment ...........................                                       6

                 GMPO’s Performance Not Properly Assessed and Resources
                     May Not Be Used in the Most Efficient Manner......................................                                6

                 Conclusions....................................................................................................       7

                 Recommendations .........................................................................................             7

                 Agency Comments and OIG Evaluation .........................................................                          7


   3     GMPO’s Local Area Network Not Secured..........................................................                               8


                 Requirements for Information Security Controls............................................. 8 

                 GMPO Management Did Not Secure Its LAN and Received
                     No Oversight From OW IT Managers ..................................................... 11 

                 GMPO Manager Was Not Trained on IT Security and OW IT
                     Managers Were Not Aware of LAN ........................................................ 12 

                 GMPO LAN Is Vulnerable and EPA Paid for Security Not Received ............. . 12 

                 EPA Management Actions Taken During Our Audit ....................................... 12 

                 Conclusions.................................................................................................... 13 

                 Recommendations ......................................................................................... 13 

                 Agency Comments and OIG Evaluation ......................................................... 14 


   4	    GMPO Needs a Process to Review Data Prior to 

         Posting on the EPA Public Access Website....................................................... 15 


                 Requirements for Web Management and Content Review ............................                                      15 

                 GMPO Posted Inaccurate Data on the EPA Public Access Website .............                                           16 

                 GMPO Personnel Were Not Aware of Web Content Review Requirements
                      and EPA Management Did Not Monitor for Compliance .......................                                       16 

                 Inaccurate Data Can Impact EPA’s Credibility ...............................................                         16 

                 EPA Management Actions Taken During Our Audit .......................................                                17 

                 Recommendations .........................................................................................            17 

                 Agency Comments and OIG Evaluation .........................................................                         17 



                                                                 -continued-
Improved Internal Controls Needed in the                                                                                13-P-0271
Gulf of Mexico Program Office


   Status of Recommendations and Potential Monetary Benefits................................. 18 




Appendices
   A     Details on Scope and Methodology .................................................................... 20


   B     Agency Response ................................................................................................ 22 


   C     Distribution ........................................................................................................... 27 

                                            Chapter 1

                                            Introduction
Purpose
                 The purpose of this audit was to determine whether the U.S. Environmental
                 Protection Agency’s (EPA’s) Gulf of Mexico Program Office (GMPO) had
                 established effective internal controls over program operations. According to the
                 U.S. Government Accountability Office (GAO), there are five standards of internal
                 control:

Table 1: GAO Five Standards of Internal Control
                               Management and employees should establish and maintain an environment
  1. Control
                               throughout the organization that sets a positive and supporting attitude
     Environment
                               toward internal control and conscientious management.
                               Internal control should provide for an assessment of the risks the agency
  2. Risk Assessment
                               faces from both external and internal sources.
                               Internal control activities help ensure that management’s directives are
  3. Control Activities        carried out. Control activities should be effective and efficient in
                               accomplishing the agency’s control objectives.
                               Information should be recorded and communicated to management and
  4. Information and           others within the entity who need it, and in a form and within a time frame
     Communications            that enables them to carry out their internal control and other responsibilities.
                               Internal control monitoring should assess the quality of performance over
  5. Monitoring
                               time and ensure that audit and other review findings are promptly resolved.
Source: Office of Inspector General (OIG) summary of GAO’s Standards for Internal Control in the
Federal Government, GAO/AIMD-00-21.3.1, November 1999.


Background

                 The Gulf of Mexico is a critical body of water from an economic, recreational, and
                 ecological standpoint. With about 60 percent of the continental United States
                 waterways draining into the Gulf, it provides a vast array of economic benefits to the
                 nation, including oil and gas production, fisheries, and leisure income. Recent high
                 profile disasters that occurred in the Gulf have focused public and political
                 attention on the region.

                 EPA’s GMPO was created in 1988 to protect, maintain, and restore the health and
                 productivity of the Gulf of Mexico while maintaining the economic well-being of the
                 Gulf region. GMPO’s mission is non-regulatory in nature, relying on a collaborative
                 approach to work with other government and community organizations in the region.




13-P-0271                                                                                                     1
                 EPA established GMPO as a semi-autonomous program. As such, it draws input
                 from state and federal partners in the Gulf region. Its strategic and budgetary
                 direction comes from the Office of Water (OW), while it receives administrative
                 support and oversight from EPA Region 4. GMPO’s offices are located at Stennis
                 Space Center, Mississippi.

                 GMPO’s strategic partners in the Gulf include the Gulf of Mexico Alliance,
                 which represents the five adjacent state governments (Florida, Alabama,
                 Mississippi, Texas and Louisiana); the Gulf of Mexico Business Coalition; the
                 Gulf Coast Ecosystem Restoration Task Force;1 and various other federal
                 agencies, such as the National Oceanic and Atmospheric Administration,
                 U.S. Fish and Wildlife Service, and U.S. Geological Survey.

                 From fiscal years (FYs) 2009 to 2012, GMPO provided $11.8 million for various
                 environmental and community projects through cooperative agreements,
                 interagency agreements, and contracts (table 2). During that period, GMPO’s
                 budget and full time equivalent (FTE) resources remained relatively constant.

                 Table 2: GMPO Yearly Budget Figures, 2009-2012
                                       Budget         Project funding
                       FY            ($ millions)       ($ millions)         FTEs
                      2009               $4.6               $2.5             14.0
                      2010                 6.0               3.9             14.0
                      2011                 4.5               2.8             13.0
                      2012                 5.5               2.6             12.9
                     Totals             $20.6              $11.8
                 Source: OW budget reports as of July 18, 2012.

                 GMPO is supported by a local area network (LAN) for information technology
                 (IT) applications. The LAN consists of a network switch, file server,
                 approximately 20 workstations, and connections to the EPA-wide area network.
                 A contractor manages the GMPO LAN under an EPA IT service contract. The
                 GMPO’s Deputy Director served as the security manager and contracting officer’s
                 technical representative for the LAN.

                 GMPO maintains Web pages on EPA’s public access website2 where it posts
                 information about its mission, activities, and accomplishments. GMPO staff
                 manage Web page content with oversight provided by the GMPO Director and
                 Deputy Director.




1
  Per the RESTORE Act, the Gulf Coast Ecosystem Restoration Task Force has now transitioned to the Gulf Coast 

Ecosystem Restoration Council.

2
  The EPA public access website address is http://www.epa.gov/gmpo/index.html. 



13-P-0271                                                                                                     2
Scope and Methodology

            We conducted our audit from May 2012 to March 2013 in accordance with
            generally accepted government auditing standards. Those standards require that
            we obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our evaluation objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our objectives.

            We based our review on GAO’s Standards for Internal Control in the Federal
            Government issued in 1999, GAO’s Internal Control Management and
            Evaluation Tool issued in 2001, and other federal criteria and EPA policies
            pertaining to internal controls. We also reviewed federal criteria and EPA policies
            and procedures for information security, such as the Federal Information Security
            Management Act (FISMA), Office of Management and Budget (OMB) Circular
            A-130, the National Institute of Standards and Technology (NIST) Special
            Publication 800-53, and the EPA Agency Network Security Policy (ANSP).

            We conducted a site visit at GMPO’s headquarters at the Stennis Space Center,
            Mississippi; interviewed staff and management; and reviewed controls in place.
            We also conducted interviews with officials from Regions 4 and 6, OW, and other
            GMPO stakeholders. Appendix A provides further details on our scope and
            methodology.

Prior Audit Reports

            GAO issued a report in July 2012, Information Security: Environmental
            Protection Agency Needs to Resolve Weaknesses, GAO-12-696. The report stated
            that security control weaknesses pervaded EPA’s systems and networks, thereby
            jeopardizing the agency’s ability to sufficiently protect the confidentiality,
            integrity, and availability of its information and systems. The report also found
            that EPA did not always update system security plans to reflect current agency
            security control requirements; did not assess management, operational, and
            technical controls for agency systems based on risk at least annually; and did not
            implement a corrective action process to track and manage all weaknesses when
            remedial actions were necessary.




13-P-0271                                                                                      3
                                   Chapter 2

  GMPO’s Performance Measures Need Improvement

            Two of GMPO’s performance measures do not reflect what GMPO was designed
            to achieve and can legitimately influence. Further, one key GMPO activity is not
            being measured. Applicable federal criteria, such as GAO’s Internal Control
            Management and Evaluation Tool issued in 2001 and the Government
            Performance and Results Act (GPRA) Modernization Act issued in 2010, stress
            the importance of continually assessing the relevance and validity of performance
            measures through risk assessment. GMPO officials acknowledged that they have
            not performed a risk assessment of GMPO’s strategic objectives and
            corresponding performance measures. As a result, the functions that GMPO
            performs are not being properly measured and GMPO’s resources may not be
            used in the most efficient or effective way.

Federal Laws, Standards, and Policies Require Risk Assessment

            The GPRA Modernization Act of 2010 (Public Law 111-352) states that an
            agency’s strategic plans shall contain an identification of key factors external to
            the agency that could significantly affect the achievement of the general goals and
            objectives. The law also states that the head of each agency shall make available
            on its public website and to OMB an update on agency performance which shall
            explain where a performance goal has not been met, if the performance goal is
            impractical or infeasible, why that is the case, and what action is recommended.

            GAO’s Standards for Internal Control in the Federal Government (GAO/AIMD-
            00- 21.3.1), November 1999, states that risk assessment is the identification and
            analysis of relevant risks associated with achieving the strategic objectives, and
            forming a basis for determining how risks should be managed.

            The GAO Internal Control Management and Evaluation Tool (GAO-01-1008G),
            August 2001, states that assumptions made in strategic plans and budgets should
            be consistent with the agency’s historical experience and current circumstances.
            It further states that activity-level (i.e., program- or mission-level) objectives flow
            from, and are linked with, the agency’s entitywide objectives and strategic plans,
            and are reviewed periodically to assure that they have continued relevance.

            EPA Order 1000.24 CHG 2, Management’s Responsibility for Internal Control,
            July 18, 2008, states, in accordance with GAO’s Standards for Internal Control in
            the Federal Government, that risk assessment is the identification and analysis of
            relevant risk associated with achieving the agency’s mission. It further states that
            program managers should identify internal and external risks that may prevent the
            organization from efficiently and effectively meeting its objectives.


13-P-0271                                                                                         4
Two GMPO Performance Measures Are Unrealistic
                 During our review we found that two of GMPO’s core performance measures
                 required them to achieve targets that they did not have direct control over. The
                 first of these measures is the hypoxia measure (SP-40),3 which is a measure that
                 calls for reductions in nutrient releases into the Mississippi River. As mentioned
                 in Chapter 1, GMPO was created with a non-regulatory mission and has no
                 authority to regulate or enforce the amount of nutrients released upstream into the
                 Mississippi River. As a result, GMPO does not have the ability to directly
                 influence this issue.

                 The second measure is the National Coastal Condition Report (NCCR) 3-year
                 index measure (GM-435). EPA publishes the NCCR in collaboration with other
                 federal agencies (National Oceanic and Atmospheric Administration, U.S. Fish
                 and Wildlife Service, and U.S. Geological Survey). The report covers all the
                 coastal regions of the country; however, measure GM-435 only refers to the
                 results pertaining to the Gulf of Mexico region. The overall index for the Gulf is a
                 compilation of five individual indices measuring a broad range of environmental
                 conditions: water quality, sediment quality, benthic zone conditions, condition of
                 coastal habitats, and fish tissue contaminants. This index is expressed in terms of
                 a 5-point scale which rates the condition of the Gulf as good, fair, or poor. We
                 spoke to subject matter experts within OW and GMPO and, based on their
                 opinions, it is not fair to expect that a small program like GMPO, with a non-
                 regulatory mission and a $5.5 million budget and 13 FTEs, could legitimately
                 affect this comprehensive rating. OW reported in 2011 that GMPO failed to meet
                 its targets under this measure four separate times during the period 2007 to 2011.4

One Key GMPO Activity Not Measured
                 An important aspect of GMPO’s work—namely, environmental education for
                 underserved and underrepresented communities—is not captured by any of
                 GMPO’s current performance measures. Based on our interviews with GMPO
                 management and staff, we estimated that about 1.8 of its 12.9 FTEs were devoted
                 to environmental justice-related tasks in FY 2012, yet GMPO did not measure this
                 activity. Environmental education was one of the strategic objectives for
                 FY 2012, but progress achieved in this area is currently not being gauged by any
                 of the performance indicators set for GMPO by OW (as shown in table 3).




3
  EPA assigns codes to all programmatic performance measures. These codes are used for tracking each program’s 

annual commitments in an internal performance tracking database system. For the measures discussed in this 

chapter, the acronyms “GM” and “SP” stand for “Gulf of Mexico” and “Strategic Plan,” respectively. 

4
  National Water Program Best Practices and End of Year Performance Report, FY 2011. 



13-P-0271                                                                                                      5
Table 3: GMPO FY 2012 Strategic Objectives/Performance Measures
                  Objectives
 (per OW National Program Manager’s
Guidance & FY 2012 President’s Budget)                        Corresponding Performance Measure
Healthy/resilient coastal habitats                   Restore/enhance/protect cumulative number of acres of
                                                      coastal marine habitats.
                                                     National Coastal Condition Report 3-year index.
Sustainable coastal barriers                         Restore/enhance/protect cumulative number of acres of
                                                      coastal marine habitats.
Wise management of sediments/nutrient                Reduce releases of nutrients throughout the Mississippi
levels                                                River to reduce size of the hypoxia zone (5-year average).
                                                     National Coastal Condition Report 3-year index.
                                                     Bi-national early detection system for harmful algal blooms.
Improved science monitoring/management               Restore water and habitat quality standards in impaired
efforts for water quality/seafood safety              segments in 13 priority areas.
                                                     National Coastal Condition Report 3-year index.
Environmental education for underserved/             None
underrepresented communities
Source: OIG analysis of information obtained from OW’s website and GMPO’s Chief Scientist.


GMPO Did Not Perform a Programmatic Risk Assessment

                 GMPO did not conduct a risk assessment of its programmatic performance
                 measures. GMPO officials stated that they did not perform a risk assessment of
                 their programmatic performance measures because, due to its unique nature as a
                 semi-independent program, its strategic objectives were set in consultation with
                 external stakeholders. GMPO officials stated, however, that they had recently
                 begun the process of formally assessing GMPO’s goals and objectives in a
                 manner consistent with its non-regulatory mission, in the context of OW’s
                 strategic plan. As a result of this process, GMPO officials developed a new set of
                 performance measures that they believe will more accurately convey the work
                 GMPO performs. GMPO submitted its proposed measures to OW for
                 consideration on January 11, 2013.

GMPO’s Performance Not Properly Assessed and Resources
May Not Be Used in the Most Efficient Manner

                 By not having performance measures in place that reflect what GMPO was
                 designed to achieve or that do not capture all of the program’s key activities,
                 GMPO’s performance is not being assessed in a comprehensive manner.
                 Consequently, OW cannot report an accurate assessment of the program results to
                 OMB. Further, some of GMPO’s limited resources are being spent on activities
                 associated with the two unrealistic performance measures and, as a result, those
                 resources may not be spent in the most efficient manner.




13-P-0271                                                                                                   6
Conclusions

            By not conducting a risk assessment of its programmatic performance measures,
            GMPO was unable to determine that there was a high risk of not achieving the
            results required by two of the measures, as described in this chapter. Further,
            environmental education was a strategic goal for GMPO in FY 2012 yet no
            performance measure was assigned for this activity. As a result, GMPO is being
            held accountable for measures it cannot realistically achieve, and is also not being
            held accountable for one key mission-related activity it performs.

Recommendations

            We recommend that the Director, Gulf of Mexico Program Office:

               1.	 Conduct a risk assessment of GMPO strategic control objectives and
                   programmatic performance measures.

            We recommend that the Assistant Administrator for Water:

               2.	 Evaluate the results of GMPO’s risk assessment and work with GMPO
                   management to make the necessary changes to its objectives and
                   measures, so GMPO can accurately measure performance.

Agency Comments and OIG Evaluation
            OW and GMPO concurred with recommendations 1 and 2, but requested guidance
            to better understand how to conduct a risk assessment. In subsequent discussions,
            we provided additional information on the subject from the Office of the Chief
            Financial Officer’s website and also encouraged OW and GMPO to speak with the
            Office of the Chief Financial Officer for more guidance. Based on those
            discussions, OW agreed to complete corrective actions for recommendation 1 by
            December 31, 2013, and for recommendation 2 by June 30, 2014.

            EPA also requested in its response to our draft report that we delete remarks by one
            of the members of OW’s Accountability Staff. We made that deletion from this
            report as it does not affect the message conveyed.

            Appendix B contains EPA’s official response.




13-P-0271                                                                                      7
                                   Chapter 3

            GMPO’s Local Area Network Not Secured 
            GMPO management did not secure the GMPO LAN and did not ensure the
            contractor met the security requirements in the LAN contract. OW IT managers did
            not provide oversight for the GMPO LAN. Federal laws, directives, and standards
            for information security and EPA policies require EPA to provide information
            security protection. GMPO’s former Acting Director, serving as the GMPO
            security manager and LAN contracting officer’s technical representative (COTR),
            was not trained on, and therefore not technically knowledgeable of, federal and
            agency IT security requirements. Further, one OW IT manager was not aware that
            the GMPO LAN existed and another OW IT manager believed that GMPO
            received IT support from Region 4. Without adequate security controls, the GMPO
            LAN is vulnerable to individuals and groups with malicious intentions who may
            launch attacks against the LAN or use it to launch attacks against other computer
            systems and networks, such as the EPA-wide area network. In addition, EPA has
            not received the full benefit of the $749,755 paid over 4 years for the LAN services
            because the contractor did not fulfill the mandated security requirements contained
            in the contract.

Requirements for Information Security Controls
            Federal guidance provides a comprehensive framework for ensuring the
            effectiveness of information security controls over information resources that
            support federal operations and assets. EPA information security policies establish
            and define the principles to meet the security controls requirements in FISMA,
            OMB circulars, and other federal and agency standards. EPA contracts for the
            GMPO LAN services include references to the federal and agency information
            security requirements that the contractor must meet to properly protect IT
            resources.

            Federal Information Security Laws, Directives, and Standards

            FISMA requires each federal agency to develop, document, and implement an
            agencywide information security program. The program should provide security
            for the information and information systems that support the operations and assets
            of the agency, including those that other agencies, contractors, or other sources
            provide or manage. According to FISMA, each agency is responsible for
            providing information security protections, commensurate with risk, for
            information collected or maintained by, or on behalf of, the agency, and
            information systems used or operated by the agency or on its behalf. FISMA
            requires that a chief information officer or a comparable official of the agency be
            responsible for developing and maintaining an agencywide information security


13-P-0271                                                                                     8
                program. FISMA also requires agencies to maintain and update annually an
                inventory of major information systems, including those provided or managed by
                another agency, contractor, or other source. FISMA requires that agencies comply
                with security control standards issued by NIST.

                OMB Circular No. A-130, Appendix III, Security of Federal Automated
                Information Resources, issued November 28, 2000, sets forth four security
                controls: (1) assignment of responsibility for security, (2) security planning,
                (3) periodic review of security controls, and (4) management authorization
                (currently called security authorization). This Circular also states that if one of
                these basic controls is missing, an agency should consider identifying a deficiency
                in accordance with OMB and the Federal Managers’ Financial Integrity Act
                (FMFIA) reporting requirements.

                NIST Special Publication 800-53, Revision 3,5 provides detailed information on
                the security control standards, their function, and purpose. Security controls are
                safeguards or countermeasures employed within an organizational information
                system to protect the confidentiality, integrity, and availability of the system and
                its information. There are three general classes of security controls: management,
                operational, and technical. Security training is an operational security control that
                requires the organization to provide role-based security-related training to
                information system managers before authorizing access to the system or
                performing assigned duties.

                EPA Information Security Policies

                EPA’s Office of Environmental Information (OEI) manages and issues
                information technology/information management-related policies. During our
                audit, we reviewed EPA’s operations for the period 2009 through 2012. During
                this period, four IT security policies applicable to EPA networks were in effect for
                various amounts of time. The first was the ANSP, Chief Information Officer
                (CIO) 2150.0, November 2007, which was in effect until it was superseded in
                August 2011 by the Interim ANSP, CIO 2150.1. This policy was then superseded
                by the Interim Agency Information Security Policy (ISP), CIO 2150.2 of April
                2012. The Interim ISP was then replaced in August 2012 by the policy that is
                currently in effect, the ISP, CIO 2150.3. The ANSP of 2007 was in effect for the
                greatest amount of time during our review period.

                The ANSP of 2007 was the security policy for the EPA network and associated
                IT resources. This policy established and defined the principles needed to meet
                the security controls requirements in FISMA, OMB circulars, and other federal
                and agency standards. Listed below are some of the IT managers’ responsibilities
                for information security.


5
 NIST Special Publication 800-53, Revision 3, Recommended Security Controls for Federal Information Systems
and Organizations, was issued in August 2009 and updated May 1, 2010.


13-P-0271                                                                                                     9
                 Senior Information Officers (SIOs) are responsible for the following for their
                 respective offices:

                     	 Ensuring effective processes and procedures are established and
                        implemented for compliance with agency information and IT policies,
                        procedures, operations, and standards.
                     	 Ensuring IT personnel manage operating systems effectively, including
                        use of an internal monitoring program to evaluate policy effectiveness that
                        is consistent with federal and agency security standards and requirements.
                     	 Ensuring that personnel are sufficiently trained to comply with federal and
                        agency security standards and requirements.

                 The Information Management Officer (IMO) is responsible for:

                       Implementing and administering network security policy within their
                        organization.
                      Conducting comprehensive assessments of management, operational, and
                        technical security controls in an information system.
                     	 Determining and certifying the extent to which the controls are
                        implemented correctly, operating as intended, and producing the desired
                        outcome with respect to meeting the security requirements for the system.
                     	 Making accreditation recommendations to the SIO serving as the 

                        Authorizing Official. 


                 Information Security Officer (ISO) responsibilities include:

                     	 Ensuring that periodic testing of security controls is conducted and those
                        controls are operating effectively.
                     	 Assisting general support system and major application managers in
                        planning for and establishing adequate security for the general support
                        system or major application as appropriate.6
                     	 Providing ongoing user security awareness and training.

                 Another ANSP requirement was that the agency must monitor contractor
                 compliance with information security responsibilities as specified in agency
                 contracts.




6
  OMB Circular No. A-130, Appendix III, defines “general support system” as an interconnected set of information
resources under the same direct management control which shares common functionality. A system normally
includes hardware, software, information, data, applications, communications, and people. A system can be, for
example, a LAN including smart terminals that supports a branch office, an agencywide backbone, or a
communications network.


13-P-0271                                                                                                     10
                EPA Contracts for LAN Services

                GMPO obtained LAN services through two IT support contracts for the period
                covering 2004 through 2016.7 The first contract ended in October 2011. The
                period of performance for the second contract began in October 2011 and
                contained option years through 2016. The statement of work or performance work
                statement for each of the contracts contained the requirement to implement EPA’s
                security policies. The second contract also stated that the contractor shall comply
                with FISMA. The total amount GMPO paid for the LAN services contracts from
                2009 through 2012 was $749,755. GMPO paid $540,382 for the first contract
                from 2009-2011 and $209,373 for the second contract from 2011–2012.

GMPO Management Did Not Secure Its LAN and Received
No Oversight From OW IT Managers

                GMPO management did not provide security controls, and OW IT managers did
                not provide oversight for the GMPO LAN. Specifically, GMPO and OW IT
                managers did not establish security controls for assigning responsibility for
                security, security planning, or periodic review of security controls for 2009 through
                2012. The OW and GMPO IT managers also did not obtain authorization to operate
                the GMPO LAN and did not include it in the EPA system inventory.

                In addition, the former Acting Director certified several statements in the GMPO
                2011 FMFIA assurance letter and supporting documents that were not factual.
                These statements were:

                    1.	 GMPO’s Information Security Plan and LAN Contingency Plan were
                        developed in accordance with FISMA and EPA requirements.
                    2.	 Periodic security reviews and updates are conducted to ensure that the
                        GMPO Information Security Plan is effectively implemented.
                    3.	 GMPO’s Security Plan has been certified by a third party vendor to test
                        security controls.
                    4.	 OW had conducted semiannual IT security reviews that resulted in no
                        issues being identified.

                The GMPO LAN security planning did not comply with FISMA and EPA
                requirements, did not contain evidence that periodic security reviews or third
                party vendor security certification were provided by the GMPO, and the OW ISO
                verified that there were no IT security reviews conducted by OW for the GMPO
                LAN. While the 2011 FMFIA assurance letter cited the former Acting Director as
                the GMPO security manager, the OW SIO never assigned the person that position
                or the associated responsibilities.


7
 The first contract was 68-W-04-005, awarded January 8, 2004; the second contract was HHSN263999900033I,
awarded August 25, 2011.


13-P-0271                                                                                                  11
GMPO Manager Was Not Trained on IT Security and OW IT Managers
Were Not Aware of LAN

                GMPO’s former Acting Director, serving as the GMPO security manager, was not
                trained on and therefore not technically knowledgeable of federal and agency IT
                security requirements. The GMPO Chief of Staff did not have any knowledge that
                the former Acting Director had taken any specialized security training, and was
                unable to provide any support showing that the Acting Director took such courses.
                The former Acting Director also served as the COTR and did not ensure the
                contractor met the LAN contract requirements to comply with FISMA and EPA’s
                security policies. Since the same person served as both the COTR and the GMPO
                security manager, there was no separation of duties to ensure proper management
                and oversight. In addition, one OW IT manager was not aware that the GMPO
                LAN existed and another OW IT manager believed that GMPO received IT
                support from Region 4.

GMPO LAN Is Vulnerable and EPA Paid for Security Not Received

                Without adequate security controls, the GMPO LAN is vulnerable to individuals
                and groups with malicious intentions who may obtain sensitive information,
                commit fraud, disrupt operations, or launch attacks against other computer
                systems and networks such as the EPA-wide area network. According to the
                GAO, “Federal agencies have experienced a significant rise in security incidents
                in recent years, with data from the U.S. Computer Emergency Readiness Team
                showing an increase in security incidents and events from 29,999 in 2009 to
                42,887 in 2011.”8 In addition, EPA has not received the full benefit of the
                $749,755 paid over 4 years for LAN services because the contractor did not fulfill
                the FISMA and EPA security requirements contained in the contract.

                Statements in the FMFIA assurance letter about LAN security were misleading.
                As a result, OW managers did not have reliable information to detect and correct
                LAN security problems. Additionally, the GMPO LAN deficiencies should be
                assessed by agency management to determine whether they are reportable under
                FMFIA.

EPA Management Actions Taken During Our Audit

                During the course of our review, we informed GMPO and OW IT management of
                the information security deficiencies identified for the LAN. GMPO and OW IT
                management took two corrective actions. In December 2012, the GMPO
                Acting Chief of Staff informed us that the GMPO Director and the Regional
                Administrator for Region 4 had agreed that Region 4 would assume IT support for
                the GMPO LAN and associated computer equipment. Region 4 assumed
8
 GAO Report, Information Security: Environmental Protection Agency Needs to Resolve Weaknesses, GAO-12-696,
July 19, 2012.


13-P-0271                                                                                               12
                 IT support for the GMPO LAN in April 2013. The OW ISO coordinated with
                 GMPO management in October 2012 and added the LAN to the EPA information
                 system inventory.

Conclusions

                 GMPO management should take immediate action to secure the LAN in
                 accordance with federal and agency information security requirements and
                 complete the corrective actions initiated during our audit. Properly protecting the
                 GMPO LAN also helps protect other interconnected IT resources such as the
                 EPA-wide area network. In addition, converting the LAN support to Region 4
                 IT managers and discontinuing the LAN services contract could result in reduced
                 costs and potential savings for EPA.

Recommendations

                 We recommend that the Regional Administrator, Region 4:

                      3.	 Require the Region 4 SIO to assign a technically knowledgeable person to
                          be the security manager of the GMPO LAN.

                      4.	 Require the Region 4 SIO to provide necessary role-based security-related
                          training to information system managers and staff before authorizing them
                          access to the system or before performing assigned duties.

                      5.	 Require the Region 4 ISO and IMO to work with the LAN security
                          manager to plan and implement IT security controls—including system
                          security planning, periodic review of security controls, and authorization
                          to operate the LAN—that comply with FISMA, OMB, and NIST
                          requirements and guidance.

                      6.	 Require the Region 4 ISO and IMO to work with the LAN security
                          manager to establish a plan of action and milestones to correct the LAN
                          deficiencies as required by NIST Special Publication 800-53.9

                 We recommend that the Director, Gulf of Mexico Program Office:

                      7.	 Establish internal controls to prevent the LAN security manager duties and
                          the LAN COTR duties from being assigned to the same individual.

                      8.	 Require the COTR to enforce the contract and make sure the LAN
                          contractor meets system security requirements in the contract.

9
  NIST Special Publication 800-53, Revision 3, defines a plan of action and milestones as a document that identifies
tasks needing to be accomplished. It details resources required to accomplish the elements of the plan, any
milestones in meeting the tasks, and scheduled completion dates for milestones.


13-P-0271                                                                                                         13
               9.	 Provide OW with notice of the erroneous statements and claims made in
                   prior years’ FMFIA assurance letters regarding IT system security.

            We recommend that the Assistant Administrator for Environmental Information
            and Chief Information Officer:

               10. Assess the LAN deficiencies identified in this report to determine whether
                   they should be reported under FMFIA, and act accordingly.

Agency Comments and OIG Evaluation
            EPA concurred with all of the recommendations in this chapter. We reviewed
            EPA’s proposed corrective actions and agree that they adequately address our
            recommendations. Subsequent to our receipt of EPA’s official response to the draft
            report, we contacted personnel from GMPO and Region 4 to clarify some of the
            completion dates for the proposed corrective actions. Those dates are shown in the
            Status of Recommendations chart on page 18 of this report.

            Appendix B contains EPA’s official response.




13-P-0271                                                                                  14
                                             Chapter 4

         GMPO Needs a Process to Review Data Prior to 

          Posting on the EPA Public Access Website
 
                 The GMPO Web page, on the EPA public access website, displayed inaccurate
                 data for over 18 months. GMPO did not perform a review of the content before
                 posting, use a Content Manager to review the content, or follow EPA’s Web
                 governance policies or content review procedures. The GMPO personnel were not
                 aware of the EPA Web governance policies or content review procedures. Also,
                 the CIO and the Associate Administrator for the Office of External Affairs and
                 Environmental Education (OEAEE) did not ensure that the GMPO complied with
                 the EPA Web governance policy and content review procedures. Inaccurate data
                 can negatively impact EPA’s credibility with the public.

Requirements for Web Management and Content Review

                 OEI issues policies and procedures that govern EPA’s public access website.
                 The Web Governance and Management10 policy established that the EPA will
                 operate and maintain a public access website to assist in fulfilling the agency’s
                 mission—to protect the environment and public health. The Web Content Types
                 and Review Procedure11 established the steps for keeping content on the EPA
                 website current. The procedure also states that EPA’s website is a fundamental
                 communication tool for every agency program and region and that effective
                 management of information is essential.

                 EPA’s Policy for Web Governance and Management

                 EPA’s Web Governance and Management policy12 states that OEI and the
                 OEAEE share responsibility for governance of EPA’s public access website. The
                 Web Council provides representative advice for content and infrastructure to the
                 National Web Content and Infrastructure Managers and, through them, to the
                 Associate Administrator for OEAEE and Assistant Administrator for OEI.
                 The Web Council disseminates information from agency leadership to the Web
                 community. Regional and program offices provide quality content and appropriate
                 infrastructure to communicate the agency’s work and mission, adhering to the
                 Web governance and management policy. The policy states that ultimate
                 accountability for these regional and program areas is at the most senior level,
                 typically at the assistant administrator or regional administrator level, who must


10
   Web Governance and Management, CIO 2180.0, September 7, 2006.

11
   Web Content Types and Review Procedure, CIO-2180-P-06.0, March 16, 2011. 

12
   This policy refers to the Office of Public Affairs which was subsequently replaced by OEAEE. 



13-P-0271                                                                                            15
            provide sufficient resources and ensure that Web resource allocation is aligned
            with agency and program priorities.

            EPA’s Web Content Types and Review Procedure

            The Web Content Types and Review Procedure established procedures for
            determining the content type and review schedules for all content posted on the
            EPA website. The procedure identifies roles and responsibilities, defines terms,
            and provides steps to review Web content. The procedure states that EPA’s
            website is a fundamental communication tool for every agency program and
            region and that effective management of information is essential. Distinguishing
            content types and identifying appropriate review schedules are critical to keeping
            the website current and up to date. Otherwise, Web visitors may have difficulty
            locating information or determining what information accurately describes current
            EPA policy decisions and activities. The CIO and the Associate Administrator for
            OEAEE are jointly responsible for monitoring compliance with this procedure.

GMPO Posted Inaccurate Data on the EPA Public Access Website

            The GMPO Web page, on the EPA public access website, contained inaccurate
            data for over 18 months. Specifically, the Web page contained inaccurate funding
            figures in a chart titled The Gulf of Mexico Program at Work, 1988-2010, which
            showed the amount that each of the five Gulf states spent on projects over that
            period. The notice on the Web page stated that it was last updated December 14,
            2010, or about 18 months prior to our identifying the issue in June 2012. There
            was no evidence of any oversight or monitoring of GMPO’s Web page content or
            posting by other offices and the inaccurate data went undetected.

GMPO Personnel Were Not Aware of Web Content Review
Requirements and EPA Management Did Not Monitor for Compliance

            GMPO did not perform a review of the content before posting, use a Content
            Manager to review the content, or follow the Web Governance and Management
            or the Web Content Types and Review Procedures. The GMPO personnel were
            not aware of the EPA Web guidance or the content review procedures. Also, the
            CIO and the Associate Administrator for OEAEE did not ensure that GMPO
            complied with the EPA Web governance policy and content review procedures.

Inaccurate Data Can Impact EPA’s Credibility

            Inaccurate data can negatively impact EPA’s credibility. The information posted
            on EPA Web pages is accessed by the public and must be accurate to maintain the
            public trust and best represent the Administrator and the agency.




13-P-0271                                                                                     16
EPA Management Actions Taken During Our Audit

            In June 2012, we identified this issue to GMPO management. GMPO took
            immediate action and removed the previously identified Web page. The GMPO
            Director initiated the development of a Web content review process within the
            office. In addition, GMPO management coordinated with and agreed that the
            Region 4 Office of External Affairs would provide the GMPO with Web content
            review and oversight. These corrective actions address part of the causes of this
            issue.

Recommendations

            We recommend that the Director, Gulf of Mexico Program Office:

               11. Complete development of and implement a Web content review process
                   within the GMPO to validate the accuracy of data and review the quality
                   of content to comply with the Web Governance and Management, and the
                   Web Content Types and Review Procedure.

               12. Complete and implement the agreement with the Region 4 Office of
                   External Affairs for Web content review and oversight.

            We recommend that the Assistant Administrator for Environmental Information
            and Chief Information Officer, and the Associate Administrator for External
            Affairs and Environmental Education:

               13. Establish a schedule for monitoring the GMPO in their enforcement of
                   Web Content Types and Review Procedure.

Agency Comments and OIG Evaluation

            EPA concurred with recommendations 11 and 12. We reviewed EPA’s proposed
            corrective actions and agree that they adequately address our recommendations.
            Regarding recommendation 13, EPA initially expressed nonconcurrence due to a
            misunderstanding of what they thought the OIG wanted the agency to do. We
            discussed this matter with personnel from OEI and OEAEE on April 29, 2013.
            Based on that discussion, we clarified with them that the agency’s proposed
            alternative corrective action would satisfy the intent of our recommendation.
            EPA personnel provided a planned completion date of September 30, 2014, for
            the proposed corrective action for recommendation 13.

            Appendix B contains EPA’s official response.




13-P-0271                                                                                   17
                              Status of Recommendations and 

                                Potential Monetary Benefits 


                                                                                                                             POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                 Planned
Rec.   Page                                                                                                     Completion   Claimed     Agreed To
No.     No.                            Subject                            Status1        Action Official           Date      Amount       Amount

 1      7     Conduct a risk assessment of GMPO strategic control           O        Director, Gulf of Mexico   12/31/2013
              objectives and programmatic performance measures.                          Program Office

 2      7     Evaluate the results of GMPO’s risk assessment and            O        Assistant Administrator    06/30/2014
              work with GMPO management to make the necessary                               for Water
              changes to its objectives and measures, so GMPO can
              accurately measure performance.

 3      13    Require the Region 4 SIO to assign a technically              C        Regional Administrator,    04/05/2013
              knowledgeable person to be the security manager of the                       Region 4
              GMPO LAN.

 4      13    Require the Region 4 SIO to provide necessary role-           O        Regional Administrator,    09/30/2013
              based security-related training to information system                        Region 4
              managers and staff before authorizing them access to the
              system or before performing assigned duties.

 5      13    Require the Region 4 ISO and IMO to work with the             O        Regional Administrator,    09/30/2013
              LAN security manager to plan and implement IT security                       Region 4
              controls—including system security planning, periodic
              review of security controls, and authorization to operate
              the LAN—that comply with FISMA, OMB, and NIST
              requirements and guidance.

 6      13    Require the Region 4 ISO and IMO to work with the LAN         O        Regional Administrator,    09/30/2014
              security manager to establish a plan of action and                           Region 4
              milestones to correct the LAN deficiencies as required by
              NIST SP 800-53.

 7      13    Establish internal controls to prevent the LAN security       C        Director, Gulf of Mexico   04/05/2013
              manager duties and the LAN COTR duties from being                          Program Office
              assigned to the same individual.

 8      13    Require the COTR to enforce the contract and make sure        C        Director, Gulf of Mexico   04/05/2013
              the LAN contractor meets system security requirements                      Program Office
              in the contract.

 9      14    Provide OW with notice of the erroneous statements and        C        Director, Gulf of Mexico   05/13/2013
              claims made in prior years’ FMFIA assurance letters                        Program Office
              regarding IT system security.

10      14    Assess the LAN deficiencies identified in this report to      O       Assistant Administrator for 09/30/2013
              determine whether they should be reported under FMFIA,                Environmental Information
              and act accordingly.                                                    and Chief Information
                                                                                              Officer

11      17    Complete development of and implement a Web content           C        Director, Gulf of Mexico   02/28/2013
              review process within the GMPO to validate the accuracy                    Program Office
              of data and review the quality of content to comply with
              the Web Governance and Management, and Web
              Content Types and Review Procedure.




13-P-0271                                                                                                                                       18
                                                                                                                               POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                   Planned
Rec.   Page                                                                                                       Completion   Claimed     Agreed To
No.     No.                            Subject                              Status1        Action Official           Date      Amount       Amount

12       17    Complete and implement the agreement with the                  C        Director, Gulf of Mexico   02/28/2013
               Region 4 Office of External Affairs for Web content review                  Program Office
               and oversight.

13       17    Establish a schedule for monitoring the GMPO in their          O       Assistant Administrator for 09/30/2014
               enforcement of EPA’s Web Content Types and Review                      Environmental Information
               Procedure.                                                               and Chief Information
                                                                                        Officer, and Associate
                                                                                      Administrator for External
                                                                                      Affairs and Environmental
                                                                                               Education




1O = recommendation is open with agreed-to corrective actions pending
 C = recommendation is closed with all agreed-to actions completed
 U = recommendation is unresolved with resolution efforts in progress




13-P-0271                                                                                                                                         19
                                                                                    Appendix A

                 Details on Scope and Methodology
We conducted our audit from May 2012 to March 2013 in accordance with generally accepted
government auditing standards. The information we reviewed covered the period 2009 through
2012. Our scope was limited to assessing whether GMPO had established effective internal
controls over its operations. As such, our tests and audit procedures were designed to provide us
with enough evidence to make such determinations.

During our audit, we reviewed federal criteria, including:

      GPRA Modernization Act of 2010 (Public Law 111-352). 

      Federal Information Security Management Act of 2002 (FISMA – 44 USC-3541). 

      Federal Managers Financial Integrity Act of 1982 (FMFIA - Public Law 97-255). 

      OMB Circular A-130, Management of Federal Information Resources, 

       November 28, 2000.
      GAO Standards for Internal Control in the Federal Government
       (GAO/AIMD-00-21.3.1), November 1999.
       GAO Internal Control Management and Evaluation Tool (GAO-01-1008G),
       August 2001.
      NIST Special Publication 800-53, Revision 3, Recommended Security Controls for
       Federal Information Systems.

   We reviewed EPA plans and policies, including:

      EPA Order 1000.24 CHG 2, Management’s Responsibility for Internal Control,
       July 18, 2008.
      EPA’s 2011-2015 Strategic Plan.
      Agency Network Security Policy (ANSP), CIO 2150.0, approved November 27, 2007.
      Interim Agency Network Security Policy (ANSP), CIO 2150.1, approved August 22, 2011.
      Interim Agency Information Security Policy (AISP), CIO 2150.2, April 9, 2012.
      Interim Security Policy (ISP), CIO 2150.3, August 6, 2012.
      Web Governance and Management, CIO 2180.0, September 7, 2006.
      Web Content Types and Review Procedure, CIO 2180-P-06.0, March 16, 2011.
   We also reviewed GMPO documentation, including:

      Selected contracts, grants, and cooperative agreements. 

      FMFIA Letters of Assurance and supporting schedules for 2011 and 2012. 

      2011 Work Plan and Accomplishments. 

      Memorandum of Understanding between GMPO, Region 4, Region 6, and OW

       (1999 amendment). 

      Physical inventory reports as of May 2012. 




13-P-0271                                                                                       20
During our audit, we interviewed:

   	 GMPO management and staff.
   	 The following OW officials: Director of the Office of Wetlands, Oceans and Watersheds;
      representatives from the Resource Management Staff, including the Associate Director;
      the ISO; and the IMO.
   	 The following Region 4 officials: Director and staff from the Water Protection Division;
      Deputy Assistant Regional Administrator and staff from the Office of Policy and
      Management (including the Comptroller and the Branch Chief for Grants Finance and
      Cost Recovery); ISO; LAN Administrator; and Director of External Affairs.
    The following OEI officials: the Senior Agency Information Security Officer, and staff
      from the Policy and Program Management Branch.
    Officials from the Gulf Coast Ecosystem Restoration Task Force, including the Executive
      Director and the Communications and Engagement Coordinator.




13-P-0271                                                                                  21
                                                                                    Appendix B

                                 Agency Response
                                          April 19, 2013
MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Report/Project No. OA-FY12-
          0480, “Improved Internal Controls Needed in the Gulf of Mexico Program
          Office,” dated March 6, 2013

FROM: 	         Nancy K. Stoner
                Acting Assistant Administrator

TO: 	           Arthur A. Elkins, Jr.
                Inspector General


Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the U.S. Environmental Protection Agency’s overall position,
along with its position on each of the report recommendations. For those report
recommendations with which the agency agrees, we have provided either high-level intended
corrective actions and estimated completion dates. For those report recommendations with which
the agency does not agree, we have explained our position and proposed alternatives to the
recommendations. For your consideration, we have included a Technical Comments Attachment
to supplement this response.

AGENCY’S OVERALL POSITION
The agency concurs with twelve of the thirteen recommendations detailed in the report. We do
not concur with the remaining one recommendation, and have provided explanations, as required
by EPA Manual 2750 – Audit Management Procedures.

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
No. Recommendation                       High-Level Intended Corrective Action(s)       Estimated
                                                                                        Completion by FY
 1      The Director, Gulf of Mexico     The Director of the Gulf of Mexico Program     Completion Date
        Program Office, conduct a risk   requests further information from the OIG on   unknown until
        assessment of GMPO strategic     the official procedure for conducting a Risk   guidance is
        control objectives and           Assessment on developing programmatic          provided
        programmatic performance         performance measures
        measures.
 2      The Assistant Administrator,     The Assistant Administrator, Office of         Completion Date
        Office of Water, evaluate the    Water, requests further information from the   unknown until



13-P-0271                                                                                     22
     results of GMPO’s risk            OIG on the official procedure for conducting     guidance is
     assessment and work with          a Risk Assessment on developing                  provided
     GMPO management to make           programmatic performance measures.
     the necessary changes to its
     objectives, measures, so
     GMPO’s can accurately
     measure performance.
 3   The Regional Administrator,       Region 4 has taken GMPO servers from their Completed
     require the Region 4 SIO to       network and placed within the Region 4
     assign a technically              office in Atlanta. The LAN Administrators
     knowledgeable person to be        and Information Security Officer (ISO) will
     the security manager of the       manage the GMPO LAN.
     GMPO LAN.
 4   The Regional Administrator ,      All Regional/Agency employees are required       To be completed
     require the Region 4 SIO to       to take annual security training. GMPO staff     by end of FY13
     provide necessary role-based      will also be required to take this training as
     security-related training to      an Agency annual requirement.
     information system managers
     and staff before authorizing
     them access to the system or
     before performing assigned
     duties.
 5   The Regional Administrator,       The GMPO will be included in the Region 4        To be completed
     require the Region 4 ISO and      Security Plan and Certification &                by end of FY13
     IMO to work with the LAN          Accreditation process, which will ensure
     security manager to plan and      compliance with FISMA, OMB, and NIST
     implement IT security             requirements.
     controls; including system
     security planning, periodic
     review of security controls,
     and authorization to operate
     for the LAN that comply with
     FISMA, OMB, and NIST
     requirements and guidance.
 6   The Regional Administrator,       The Regional Administrator Plan of Action     To be completed
     require the Region 4 ISO and      & Milestones (POAMs) will be generated        by end of FY14
     IMO to work with the LAN          from the annual Certification &
     security manager to establish a   Accreditation reviews and these findings will
     plan of action and milestones     be addressed by the Region 4 ISO, IMO, and
     to correct the LAN                LAN Administrators.
     deficiencies as required by
     NIST SP 800-53.
 7   The Gulf of Mexico Program,       The Gulf of Mexico Program Office has            Completed April
     Director, establish internal      completed the transition from our Local          2013
     controls to prevent the LAN       LAN Server to the Region 4 Server. Our
     security manager duties and


13-P-0271                                                                                      23
     the LAN COTR duties from         LAN Security Manager is located in Region
     being assigned to the same       4 and our LAN COTR is also in Region 4
     individual.                      and is two separate individuals.
 8   The Gulf of Mexico Program,      The Gulf of Mexico Program Office LAN IT       Completed April
     Director, require the COTR to    Support is now under a new contract with       2013
     enforce the contract and make    Region 4. Region 4 is responsible for
     sure the LAN contractor meets    making sure the system security
     system security requirements     requirements are met under the new contract.
     in the contract.                 LAN Contractor in Region 4 meets the
                                      system security requirements.
 9   The Gulf of Mexico Program       The Gulf of Mexico Program Office,             To be completed
     Office, Director, provide OW     Director and/or Chief of Staff will discuss    by end of April
     with notice of the erroneous     past submittals of our FMFIA Assurance
     statements and claims made in    letters regarding IT system security, with
     prior years’ FMFIA assurance     OW staff.
     letters regarding IT system
     security.
10   The Assistant Administrator      OEI concurs with the recommendation.           QTR4 FY13
     for Environmental
     Information and Chief
     Information Officer , assess
     the LAN deficiencies
     identified in this report to
     determine whether they
     should be reported under
     FMFIA, and act accordingly.
11   Gulf of Mexico Program           The Gulf of Mexico Program Office has         Completed
     Office, Director, complete       developed a Web Content Review Standard       February 2013
     development of and               Operation Procedures document which they
     implement a Web content          follow internally to validate the accuracy of
     review process within the        the data and comply with all EPA Web
     GMPO to validate the             procedures. GMPO is now under the
     accuracy of data and review      administrative structure of Region 4 Office
     the quality of content to        of Information and External Affairs for our
     comply with the Web              Web Content and review, and they are
     Governance and Management,       following the EPA’s official Web review and
     and Web Content Types and        revision processes.
     Review Procedure.
12   Complete and implement the       The Gulf of Mexico Program Office has an       Completed
     agreement with Region 4          official agreement with Region 4 Office of     February 2013
     Office of External Affairs for   External Affairs and is under their review
     Web content review and           and oversight.
     oversight.




13-P-0271                                                                                  24
Disagreements
No. Recommendation               Agency Explanation/Response                              Proposed Alternative
13 The Assistant                 The Office of Environmental Information and the          See Agency Response
      Administrator for          Office of External Affairs and Environmental
      Environmental              Education concur with the goal of
      Information and Chief      recommendation 13, and are taking steps to solve
                                 the issue.
      Information Officer, and
      the Associate              We are building a new Web publishing system
      Administrator for          that will allow for automatic and timely
      External Affairs and       enforcement of the Web Content Types and
      Environmental              Review Procedure. Content owners will receive
      Education, establish a     multiple notices directing them to review their
      schedule for monitoring    content. If they still fail to review their content on
      the GMPO in their          time, the content will automatically be removed
      enforcement of EPA’s       from EPA’s website.
      Web Content Types and
      Review Procedure.          All EPA pages, including those owned by GMPO,
                                 will be in this system by the end of FY 2014.

                                 Per the EPA Web Governance and Management
                                 Policy
                                 (http://www.epa.gov/irmpoli8/policies/21800.pdf),
                                 OEAEE (previously named OPA) and OEI
                                 oversee governance of epa.gov. We establish
                                 policy, procedures, and standards, working with
                                 each office and region through the Web Council.
                                 The Web Content Types and Review procedure is
                                 one of many such governing documents. Web
                                 Council members, in turn, work with their
                                 colleagues to ensure compliance with
                                 requirements.

                                 Until the new Web publishing system is fully
                                 operational at the end of FY 2014, OEI and
                                 OEAEE will remind the Web Executive Board,
                                 Web Council, and the EPA Web community of
                                 the importance of following EPA Web policies,
                                 procedures, and standards. We will specifically
                                 highlight the importance of the Web Content
                                 Types and Review Procedure.

                                 However, it is important to note that OEI and
                                 OEAEE do not concur with the idea of a special
                                 monitoring schedule for GMPO. Our offices lack
                                 the resources to create schedules for monitoring
                                 specific programs’ compliance with requirements.
                                 Ultimate accountability for content rests with each
                                 office and region.



13-P-0271                                                                                            25
CONTACT INFORMATION

If you have any questions regarding this response, please contact, Michael Mason at 202 564-
0572 or at mason.michael@epa.gov.

Attachment
cc:   	Malcolm Jackson
      Ben Scaggs
      Gwendolyn Keyes Fleming
      James O’Hara
      Mike Shapiro
      Diane Altsman
      Dorothy Rayfield
      Larry Lincoln
      Michael Mason
      Marilyn Ramos
      Scott Dockum
      Patrick Gilbride
      Melissa Heist
      Randy Holthaus
      Lisa Bergman
      Raul Adrian




13-P-0271                                                                                      26
                                                                                Appendix C

                                    Distribution
Office of the Administrator
Assistant Administrator for Water
Assistant Administrator for Environmental Information and Chief Information Officer
Director, Gulf of Mexico Program Office
Regional Administrator, Region 4
Associate Administrator for External Affairs and Environmental Education
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Principal Deputy Assistant Administrator for Water
Principal Deputy Assistant Administrator for Environmental Information
Deputy Administrator, Region 4
Associate Administrator for Congressional and Intergovernmental Relations
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Region 4




13-P-0271                                                                               27
